                                   Report Template Version = 09-08-04




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





       USE OF MODIFIER 25 





                    Daniel R. Levinson 

                     Inspector General 


                     November 2005

                     OEI-07-03-00470

                                                                       Report Template Version = 09-08-04




                    Office of Inspector General
                                     http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations in order to reduce waste, abuse, and mismanagement and to promote economy
and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program evaluations
(called inspections) that focus on issues of concern to HHS, Congress, and the public. The
findings and recommendations contained in the inspections generate rapid, accurate, and up-to
date information on the efficiency, vulnerability, and effectiveness of departmental programs.
OEI also oversees State Medicaid Fraud Control Units which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions,
or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                                                                    Report Template Version = 09-08-04




    I N T R O D
  Δ         E X E C UU C T T I I V O E N          S U M M A R Y         



                         OBJECTIVE
                         To determine the extent to which use of modifier 25 meets Medicare
                         program requirements.


                         BACKGROUND
                         Medicare payments for medical procedures include payments for certain
                         evaluation and management (E/M) services that are necessary prior to
                         the performance of a procedure. The Centers for Medicare & Medicaid
                         Services (CMS) does not normally allow additional payments for
                         separate E/M services performed by a provider on the same day as a
                         procedure. However, if a provider performs an E/M service on the same
                         day as a procedure that is significant, separately identifiable, and above
                         and beyond the usual preoperative and postoperative care associated
                         with the procedure, modifier 25 may be attached to the claim to allow
                         additional payment for the separate E/M service. In calendar
                         year 2002, Medicare allowed $1.96 billion for approximately 29 million
                         claims using modifier 25.

                         The Office of Inspector General (OIG) randomly selected 450 claims
                         billed in calendar year 2002 using modifier 25 for medical review. OIG
                         requested from the appropriate providers all medical records for
                         services provided to the beneficiary on the date of service listed on the
                         sampled claim. OIG was able to contact the providers who submitted
                         431 of these sampled claims; therefore, 19 claims were excluded from
                         the analysis. OIG contracted with certified professional coders to
                         determine whether the use of modifier 25 met program requirements.
                         OIG also conducted structured interviews with all carriers focusing on
                         their understanding, outreach, and oversight regarding modifier 25;
                         conducted interviews with staff in CMS central and regional offices
                         about their oversight of modifier 25 use; and reviewed examples of
                         carrier outreach relating to modifier 25.


                         FINDINGS
                         Thirty-five percent of claims using modifier 25 that Medicare allowed
                         in 2002 did not meet program requirements, resulting in $538 million
                         in improper payments. Medicare should not have allowed payment for
                         these claims because the E/M services were not significant, separately
                         identifiable, and above and beyond the usual preoperative and



OEI-07-03-00470          USE   OF   MODIFIER 25                                                      i
                                                              Report Template Version = 09-08-04




    E X E C U T I V E              S U     M M A R Y


                  postoperative care associated with the procedure; or because the claims
                  failed to meet basic Medicare documentation requirements.
                  Some additional claims did not meet program requirements,
                  although the unnecessary use of modifier 25 may not have resulted
                  in improper payments. A large number of claims submitted used
                  modifier 25 unnecessarily, such as by attaching the modifier to an E/M
                  claim when no other service was performed on the same day. While
                  such use may not lead to improper payments, it does fail to meet
                  program requirements.
                  Carrier oversight related to modifier 25 is limited. Carriers use
                  different methods to provide outreach regarding the use of modifier 25.
                  More than one-third of carriers have not conducted oversight related to
                  modifier 25.


                  RECOMMENDATION
                  CMS should work with carriers to reduce the number of claims
                  submitted using modifier 25 that do not meet program requirements.
                  CMS may want to:

                  o 	 Reinforce the requirements that E/M services billed using
                        modifier 25 be significant, separately identifiable, and above and
                        beyond the usual preoperative and postoperative care associated
                        with the procedure;
                  o 	 Encourage carriers to emphasize that appropriate documentation
                        of both E/M services and procedures must be maintained to
                        support claims for payments using modifier 25 even though the
                        documentation is not required to be submitted with the claims;
                        and
                  o 	 Emphasize that modifier 25 should only be used on claims for E/M
                        services, and only when these services are provided on the same
                        day as another procedure.

                  CMS should also encourage carriers to reexamine their
                  modifier 25 outreach activities and include modifier 25 reviews
                  in their medical review strategies where appropriate.




OEI-07-03-00470   USE   OF   MODIFIER 25                                                      ii
                                                            Report Template Version = 09-08-04




    E X E C U T I V E              S U     M M A R Y 





                  AGENCY COMMENTS
                  CMS concurred with the OIG recommendations and indicated that it
                  recently made significant efforts to educate the provider community
                  about the need for documentation to support services billed to the
                  Medicare program. CMS noted that it will inform contractors of the
                  OIG findings so they can take any appropriate actions. CMS will also
                  modify the “Medical Claims Processing Manual” to clarify that
                  appropriate documentation must be maintained to support claims for
                  payments, even though providers are not required to submit the
                  documentation with the claim. CMS indicated that it will explore the
                  potential to place greater emphasis on modifier 25 outreach activities
                  and include the modifier in contractor medical review strategies.

                  CMS did note that the majority of improper payments reported
                  stemmed from instances in which the provider failed to furnish the
                  documentation necessary to determine the medical necessity of the
                  service, rather than uncertainty about the guidelines for using modifier
                  25. Nonetheless, CMS indicates it will explore options to reinforce or
                  emphasize the requirements for using modifier 25.


                  OFFICE OF INSPECTOR GENERAL RESPONSE
                  OIG appreciates CMS’s comments on the draft report and recognizes its
                  efforts to educate the provider community and contractors regarding the
                  need for documentation to support services billed to Medicare.
                  However, OIG believes it is important to note that additional improper
                  payments may have been made, and that without proper documentation
                  OIG was unable to determine if services were provided and whether
                  these payments were appropriate.




OEI-07-03-00470   USE   OF   MODIFIER 25                                                   iii
                                                                                Report Template Version = 09-08-04




Δ   T A B L E          O F            C O N T E N T S                                  





          E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



          INTRODUCTION ............................................... 1



          FINDINGS ...................................................... 6

                     Improper payments totaled $538 million. . . . . . . . . . . . . . . . . . . . . . . 6 


                     Unnecessary use exists . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


                     Carrier oversight is limited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


          R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 



          A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                     Stratification and Sample . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


          A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 



          A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

                                                                           Report Template Version = 09-08-04




  Δ         I N T R O D U C T I O N                      





                    OBJECTIVE
                    To determine the extent to which use of modifier 25 meets Medicare
                    program requirements.


                    BACKGROUND
                    Evaluation and management (E/M) services that are necessary for the
                    performance of a medical procedure (for example, assessing the
                    site/condition of the problem area, explaining the procedure, and
                    obtaining informed consent) are included in Medicare payments for the
                    procedure.1 However, if a provider performs an E/M service on the same
                    day as a procedure that is significant, separately identifiable, and above
                    and beyond the usual preoperative and postoperative care associated
                    with the procedure, the provider may attach modifier 25 to the E/M
                    service claim2 to facilitate billing and to allow separate payment for the
                    E/M service.3 In calendar year 2002, Medicare allowed $1.96 billion for
                    approximately 29 million services billed using modifier 25.
                    Required Documentation
                    Although providers are not required to provide supporting
                    documentation when submitting claims using modifier 25,4 they must
                    furnish “such information as may be necessary in order to determine the
                    amounts due” to receive Medicare payment.5 Medical record
                    documentation should include:
                    o 	 Clinical information confirming that the E/M service billed was
                          above and beyond the E/M services included in the procedure, 6


                    1 “CPT Assistant,” Vol. 8, Issue 9, September 1998.
                    2 Within a single claim, multiple line items for individual services and procedures may be
                     billed. OIG uses the term “claim” generically to refer to claims and claim line items.
                    3 CMS’s “Internet-Only Manual, Educational Resource Web Guide,” CMS Manual System,
                     Publication 100-4, Medicare Claims Processing, Chapter 12, § 40.2 Billing Requirements
                     for Global Surgeries, A-Procedure Codes and Modifiers, 8-Significant Evaluation and
                     Management on Day of Procedure.
                    4 Medicare Program; Revisions to Payment Policies Under the Physician Fee Schedule for
                     Calendar Year 2000, 56 Fed. Reg. 59502–59603 (1990).
                    5 Social Security Act, § 1833 (e). “No payment shall be made to any provider of services or
                     other person under this part unless there has been furnished such information as may be
                     necessary in order to determine the amounts due . . . ”
                    6 “CPT Assistant,” Vol. 8, Issue 9, September 1998.




OEI-07-03-00470     USE   OF   MODIFIER 25                                                                        1
                                                                        Report Template Version = 09-08-04




    I N T R O D   U C T          I O N


                   o 	 Information to support that the provider submitting the claims for
                       payment is the same provider that furnished both the medical
                       procedure(s) and the E/M service,7 and
                   o 	 Information indicating that a single beneficiary received both the
                       medical procedure(s) and the E/M service billed.

                   Modifier 25 should be used only with the E/M service portion of the
                   Medicare claim. Procedures submitted in conjunction with an
                   E/M service do not need modifier 25 in order to be paid. 8 Therefore,
                   even if used appropriately for every encounter a provider has with every
                   patient (one surgical procedure and one E/M service), modifier 25 should
                   be used on no more than 50 percent of items billed.
                   Guidance and Outreach
                   Guidance to providers regarding the use of modifier 25 is available
                   through a variety of sources, such as newsletters, bulletins, and letters
                   from contractors and the Centers for Medicare & Medicaid Services
                   (CMS). However, the governing source for determining appropriate
                   payment is CMS’s “Internet-Only Manual.”9 Chapter 12, section 40.2 of
                   the manual states:

                              Modifier 25 is used to facilitate billing of evaluation and
                              management services on the day of a procedure for which separate
                              payment may be made. It is used to report a significant,
                              separately identifiable evaluation and management service
                              performed by the same physician on the day of a procedure. The
                              physician may need to indicate that on the day a procedure or
                              service that is identified with a [Current Procedural Terminology]
                              code was performed, the patient’s condition required a significant,
                              separately identifiable evaluation and management service above
                              and beyond the usual preoperative and postoperative care
                              associated with the procedure or service that was performed.

                   In addition, CMS allows providers to use the Current Procedural
                   Terminology (CPT) Manual, published by the American Medical
                   Association, as a source of information regarding the use of modifier 25.
                   The CPT Manual contains detailed descriptions of the procedure codes


                   7 Social Security Act, § 1833 (e). 

                   8 CMS’s “Internet-Only Manual,” Pub. 100-4, Medicare Claims Processing, chapter 12. 

                   9 Department of Health and Human Services, CMS, “Internet-Only Manual,” retrieved 

                    March 7, 2005, from http://www.cms.hhs.gov/manuals/cmsindex.asp.



OEI-07-03-00470    USE   OF   MODIFIER 25                                                                  2
                                                              Report Template Version = 09-08-04




    I N T R O D   U C T          I O N


                   and modifiers that providers use to submit claims for reimbursement to
                   Medicare.

                   Medicare contractors that pay Part B claims, which are called carriers,
                   issue guidance to providers regarding modifier 25 through carrier
                   websites, newsletters, and workshops. Carriers also conduct outreach
                   activities to help educate providers about Medicare policies, including
                   modifier 25. Carriers may communicate directly through e-mails or
                   letters, conduct local provider education and training programs, publish
                   newsletters, and conduct provider communication meetings.
                   Oversight
                   CMS requires carriers to conduct oversight of claims in their respective
                   jurisdictions. Carriers prioritize their claims oversight activities based
                   on the degree of risk to the Medicare program and available resources,
                   and prepare an annual medical review strategy that they submit to
                   CMS. Each carrier may choose whether modifier 25 is included in its
                   annual review strategy. CMS allocates funds to conduct the reviews
                   based on each carrier’s past review volume. Carriers are asked to then
                   prioritize their workloads and perform reviews within that target
                   budget amount.


                   METHODOLOGY
                   Literature Review
                   The Office of Inspector General (OIG) reviewed reports and other
                   documents related to modifier 25 published by CMS, Medicare carriers,
                   OIG, the Government Accountability Office, and other organizations
                   (such as provider groups, journals, and industry newsletters).
                   Interviews
                   OIG conducted structured interviews with staff in CMS central and
                   regional offices regarding their oversight of modifier 25 use. OIG also
                   conducted structured interviews with medical review and provider
                   education staff at all 24 carriers contracting with Medicare at the time
                   of the review. Carrier interviews focused on the carriers’ understanding
                   of the definition of modifier 25 and the outreach and oversight they had
                   conducted related to this modifier.
                   Electronic Claims Review and Sample Selection
                   OIG obtained all 2002 Medicare Part B provider claims from the CMS
                   National Claims History file. From this file, OIG identified all allowed
                   claims for services billed with modifier 25 and merged these claims with


OEI-07-03-00470    USE   OF   MODIFIER 25                                                     3
                                                             Report Template Version = 09-08-04




    I N T R O D 
U C T          I O N


                  the Physician Identification Master Record. OIG then determined each
                  provider’s proportion of modifier 25 use, based on all claims each
                  provider submitted, which was used later in determining the sample for
                  medical review.

                  OIG divided claims submitted with modifier 25 into two groups: those
                  that had no other claim for the same beneficiary on the same day for the
                  same provider and those that did.

                  Physicians who submitted claims included in the first group used

                  modifier 25 unnecessarily because no other claims were submitted for 

                  the beneficiaries on the dates of those services. 


                  From the second group, OIG excluded all providers submitting fewer 

                  than 25 claims using modifier 25 and those whose proportion of 

                  modifier 25 use was less than 1 percent, due to the low risk these 

                  providers pose. 


                  OIG grouped the remaining 24.8 million claims into six strata based on the
                  provider’s proportion of modifier 25 use and volume of claims. OIG then
                  randomly selected 75 claims from each of the six strata to create a sample
                  of 450 claims. The appendix provides an overview of the six strata.
                  Medical Record Request
                  For each of the 450 sampled claims, OIG requested the provider 

                  identified to provide all medical records for services rendered to the 

                  beneficiary on the date of service listed. OIG achieved a 92 percent

                  (415/450) response rate to the request for medical records. This 

                  response rate was spread across all six strata. 


                  For the remaining 35 providers, either OIG received no response to the

                  requests for medical records or requests were returned because of 

                  invalid addresses. OIG attempted to identify alternative addresses for 

                  these providers by consulting Medicare contractors, the Unique 

                  Provider Identification Number Registry Web site, State licensing 

                  boards for the provider’s State of practice, and State licensing boards in 

                  contiguous States. OIG then mailed a request to each address 

                  identified. When telephone numbers were available, OIG also 

                  attempted to contact these providers by telephone. 


                  Through these efforts, OIG was able to obtain valid addresses 

                  for 14 of the remaining 35 providers. OIG made at least four attempts 

                  to contact each of these providers, two or more of which were made via 

                  certified mail to each valid address identified. OIG received return 

                  receipts for these 14 providers, indicating that they received the 


OEI-07-03-00470   USE   OF   MODIFIER 25                                                     4
                                                             Report Template Version = 09-08-04




    I N T R O D   U C T          I O N


                   request. OIG did not receive the requested documents from 13 of these
                   providers. One provider submitted documentation after the completion
                   of the data collection and review, and was therefore included in the 14
                   providers who did not respond to the OIG request. Two providers
                   refused to provide medical records because they no longer maintained
                   the records in question. One provider had retired and forwarded all
                   medical records to his patients; the other was a physical therapist
                   providing services to the patients of a provider OIG was unable to
                   contact.

                   OIG was unable to obtain valid addresses or telephone numbers for
                   18 providers and unable to contact 1 additional provider. These 19
                   providers were not included in the analysis. Providers for 431 of the
                   450 sampled claims had the opportunity to respond and were included
                   in the analysis.
                   Medical Record Review
                   OIG contracted with certified professional coders who used the medical
                   records received from providers to determine whether the use of
                   modifier 25 met program requirements. One of two coders reviewed
                   each sampled record using a data collection instrument specifically
                   designed for this study. This data collection instrument was based on
                   the CMS definition of modifier 25 in the “Internet-Only Manual,”
                   Chapter 12, section 40.2. CMS approved the instrument prior to use.
                   After the initial coding review, a second coder reviewed each completed
                   data collection instrument to be sure that the initial coder addressed
                   each question correctly and clearly explained the results from a coding
                   perspective. The project manager, a registered nurse with 18 years’
                   experience, also conducted a quality assurance evaluation of all reviews
                   to ensure that the answers to questions were complete, consistent, and
                   clearly communicated. In addition, interrater reliability testing was
                   conducted on a 5-percent sample of the reviews. This means that for
                   5 percent of the records reviewed, the source medical record was
                   rereviewed by a second coder in addition to the review done by the
                   primary reviewer. Results of the second review were then compared
                   with the original review to ensure that the coders were in agreement.
                   Standards
                   This study was conducted in accordance with the “Quality Standards for
                   Inspections” issued by the President’s Council on Integrity and
                   Efficiency and the Executive Council on Integrity and Efficiency.



OEI-07-03-00470    USE   OF   MODIFIER 25                                                    5
                                                                                             Report Template Version = 09-08-04




  Δ          F I N D I N G S 


               Thirty-five percent of claims using                  In 2002, Medicare should not
    modifier 25 that Medicare allowed in 2002 did                   have allowed payments for
      not meet program requirements, resulting                      35 percent of claims for
                                                                    E/M services billed using
            in $538 million in improper payments
                                                                    modifier 25. These claims totaled
                                $538 million in improper payments that Medicare and/or beneficiaries
                                made. The payments were improper because the services were deemed
                                (1) noncovered because they did not meet the requirements for use of
                                modifier 25 or (2) undocumented due to failure to meet basic Medicare
                                documentation requirements under section 1833(e) of the Social
                                Security Act (the Act).10 These claims were distributed across strata,
                                provider specialty types, and the Medicare carriers that allowed the
                                claims. See Table 1 below for a summary of the improper payments.


Table 1: Improper Payments for Claims Using Modifier 25

                                                                    Sample                             Weighted Projection

         Basis for Improper Payment
                                                     Number of    Services             Allowed        Services       Allowed
                                                      Services (Proportion)            Amount      (Proportion)      Amount


                  Failed to meet modifier 25
Noncovered                                                   9           0.02          $469.75
                  requirements


                  Failed to document E/M
                                                           116           0.27        $6,868.20
                  service and/or procedure


                  Missing identifying
Undocumented                                                19           0.04        $1,202.72
                  information



                  Did not respond to request                14           0.03        $1,127.51


 Total                                                     158           0.36        $9,668.18            0.35*   $538 million


Source: OIG medical review of claim line items billed with modifier 25 and allowed by Medicare in 2002 and 2005.

* This percentage is projected and may therefore vary slightly from the sample proportion.



                                10 These projected statistics use weights derived by dividing the population of an individual
                                   stratum by the number of sampled claims in that stratum. For the point estimate of
                                   35 percent, the confidence interval at 95 percent is 28 to 40 percent. For the estimated
                                   dollar amount of $538 million, the confidence interval at 95 percent is $431 million to
                                   $643 million.



OEI-07-03-00470                 USE   OF   MODIFIER 25                                                                           6
                                                              Report Template Version = 09-08-04




    F   I N D I N G 
S


                    Noncovered
                    Medical reviewers determined that Medicare should not have allowed
                    2 percent (9/431) of the sampled claims reviewed because the
                    E/M services for which payments were made did not meet the
                    requirement that the services be significant, separately identifiable, and
                    above and beyond the usual preoperative and postoperative care
                    associated with the procedure. Therefore, these services were not
                    covered.
                    For example, documentation for one of the records reviewed indicated
                    that a Medicare beneficiary had returned for a nail debridement
                    procedure after a previous visit. The patient’s condition had been
                    evaluated prior to the day of the procedure. The provider documented
                    some E/M services the day of the procedure, but did not document any
                    E/M services above and beyond the services necessary to perform the
                    debridement on the day of the procedure. Therefore, payment for the
                    separate E/M service should not have been allowed.
                    Undocumented
                    Providers failed to furnish documentation that met Medicare program
                    payment requirements for 34 percent (149/431) of the sampled claims.
                    These claims did not meet the requirements of section 1833(e) of the
                    Act, which states that, to receive Medicare payment, providers must
                    furnish “such information as may be necessary in order to determine the
                    amounts due.” The providers who submitted these claims failed to
                    document E/M services and/or procedures, provided documentation that
                    was missing identifying information, or failed to respond to OIG
                    request(s) for documentation.

                    It is important to note that some of the undocumented claims might
                    have fallen into the noncovered category had OIG received more
                    complete documentation. For example, if a provider performed only a
                    procedure but billed for both the procedure and an E/M service, the E/M
                    service should not have been allowed. However, OIG could not
                    determine if missing documentation was the result of the provider
                    simply not supplying it, thus failing to meet the requirements of
                    section 1833(e) of the Act, or because an E/M service did not meet
                    program requirements. OIG grouped all cases involving missing
                    documentation into the undocumented category.
                    Failure to document E/M service and/or procedure. Medical reviewers found
                    that providers did not document the E/M services and/or procedures for
                    27 percent (116/431) of the sampled claims received from providers. For

OEI-07-03-00470     USE   OF   MODIFIER 25                                                    7
                                                               Report Template Version = 09-08-04




    F   I N D I N G 
S


                    example, documentation for one of the records reviewed indicated that a
                    Medicare beneficiary presented for a flu shot. The provider submitted a
                    claim for the flu shot and an E/M service, the latter using modifier 25.
                    Both claims were allowed. The provider furnished documentation that
                    a flu shot was provided, but no documentation to support the claim for a
                    separate E/M service.

                    Another provider documented the E/M service provided to a beneficiary
                    but did not document that the procedures were performed. In this
                    instance, Medicare allowed the E/M service that was documented and
                    four physical therapy procedures that were not documented. These
                    physical therapy procedures were listed in the record as planned
                    treatment, but there was no documentation that these procedures were
                    actually performed. Without documentation of the procedures,
                    Medicare should not have allowed these claims because it is impossible
                    to determine if the procedures were provided and if the E/M service met
                    program requirements.
                    Missing identifying information. Four percent (19/431) of the records
                    reviewed were missing identifying information, such as the beneficiary
                    or physician name, or a physician signature. Section 1833(e) of the Act
                    states that providers must furnish information necessary to determine
                    the amount of payment due. Without identifying information, reviewers
                    cannot determine if the same provider furnished or the same beneficiary
                    received both the procedure and the E/M service. Therefore, these
                    records failed to meet basic documentation requirements and made it
                    impossible to determine whether the use of modifier 25 met CMS
                    requirements.
                    Providers did not respond to requests for documentation. Despite repeated
                    requests, providers failed to furnish the documentation required to
                    support payment for the E/M services and associated procedures for
                    3 percent (14/431) of the sampled claims. Therefore, Medicare should
                    not have paid these claims because it is impossible to determine if the
                    services were provided.




OEI-07-03-00470     USE   OF   MODIFIER 25                                                     8
                                                                           Report Template Version = 09-08-04




    F   I N D I N G    S          





       Some additional claims did not meet program           The primary study objective was
     requirements, although the unnecessary use of           to determine the extent to which
      modifier 25 may not have resulted in improper          the use of modifier 25 meets
                                                             Medicare program
                                          payments
                                                             requirements. However, in
                      developing the sample, OIG identified a large number of claims on
                      which modifier 25 was used unnecessarily. While unnecessary use of
                      modifier 25 does not always lead to improper payments, such use fails to
                      meet program requirements.
                      In 2002, Medicare allowed 9 percent of all claims (2.6 million) using
                      modifier 25 in which the provider billed for only one service on a single
                      day. Because modifier 25 is to be used only with an E/M service that
                      the same provider furnished on the same day as a procedure, the use of
                      modifier 25 was unnecessary. These 2.6 million claims, submitted by
                      192,974 providers, were distributed among many specialty types and
                      multiple carriers.11
                      Twenty-eight percent of all providers in the sample population used
                      modifier 25 on more than 50 percent of their claims, thus using it
                      unnecessarily. Modifier 25 should only be used with the E/M service
                      portion of a Medicare claim and not on the procedure portion of the
                      claim. Therefore, even if used properly for every encounter a provider
                      has with every beneficiary, modifier 25 should be used on no more than
                      50 percent of services billed. Claims submitted for some providers
                      included the modifier on every item billed to Medicare in 2002—both
                      procedures and E/M services.



                             Carrier oversight related to     Carriers have many ways of
                                   modifier 25 is limited     communicating information to
                                                              providers regarding modifier 25.
                      Carriers may communicate directly through e-mails or letters, conduct
                      local provider education and training programs, publish newsletters,
                      and conduct provider communication meetings. The majority of carriers
                      reported using one or two of these channels.



                      11 The number of providers was calculated by counting Unique Physician Identification
                            Numbers listed on these claims.



OEI-07-03-00470       USE   OF   MODIFIER 25                                                                  9
                                                                 Report Template Version = 09-08-04




    F   I N D I N G    S


                      Thirty-eight percent (9/24) of carriers reported that they have never
                      conducted any review of modifier 25. These carriers indicated that the
                      use of modifier 25 had not “risen to a level” to warrant inclusion in their
                      medical review strategy, or that resource limitations prohibited them
                      from doing so.

                      The remaining 15 carriers reported having conducted some type of
                      review for modifier 25 at least once since 1998. Twelve carriers found
                      improper use, and 10 of these reported high error rates. For
                      example, one carrier reported an error rate of 39 percent, while another
                      reported a 44 percent error rate. Despite these results, carriers
                      indicated to us that modifier 25 reviews are not a priority.




OEI-07-03-00470       USE   OF   MODIFIER 25                                                    10
                                                                Report Template Version = 09-08-04




    F IE NC DO I M N MG E S N D A T
    R                                          I O N   S
  Δ         R E C O M M E N D A T I O N S 





                      In 2002, Medicare allowed $538 million in improper payments for
                      services billed using modifier 25. At the time of the review, carrier
                      oversight was limited despite evidence of problems with modifier 25.
                      Without changes, future Medicare expenditures related to
                      modifier 25 remain at risk.
                      CMS should work with carriers to reduce the number of improper
                      claims submitted using modifier 25. CMS may want to:
                      o 	 Reinforce the requirements that E/M services billed using
                          modifier 25 be “significant, separately identifiable” and “above and
                          beyond the usual preoperative and postoperative care associated
                          with the procedure;”

                      o 	 In its outreach to providers, encourage carriers to emphasize that
                          appropriate documentation of both E/M services and procedures
                          must be maintained to support claims for payments using
                          modifier 25 even though documentation is not required to be
                          submitted with the claims; and

                      o 	 Emphasize that modifier 25 should only be used on claims for E/M
                          services, and only when these services are provided on the same day
                          as another procedure.

                      CMS should also encourage carriers to reexamine their
                      modifier 25 outreach activities and include modifier 25 reviews in their
                      medical review strategies where appropriate.


                      AGENCY COMMENTS
                      CMS concurred with the OIG recommendations and indicated that it
                      had recently made significant efforts to educate the provider community
                      about the need for documentation to support services billed to the
                      Medicare program. CMS noted that it will inform contractors of the
                      OIG findings so they can take any appropriate actions. CMS will also
                      modify the “Medical Claims Processing Manual” to clarify that
                      appropriate documentation must be maintained to support claims for
                      payments, even though providers are not required to submit the
                      documentation with the claim. CMS indicated that it will explore the
                      potential to place greater emphasis on modifier 25 outreach activities
                      and include the modifier in contractor medical review strategies.



OEI-07-03-00470       USE   OF   MODIFIER 25                                                   11
                                                               Report Template Version = 09-08-04




    R   E C O     M M E N D A T                I O N


                      CMS did note that the majority of improper payments reported
                      stemmed from instances in which the provider failed to furnish the
                      documentation necessary to determine the medical necessity of the
                      service, rather than from uncertainty about the guidelines for using
                      modifier 25. Nonetheless, CMS indicates it will explore options to
                      reinforce or emphasize the requirements for using modifier 25. The full
                      text of the agency’s comments can be found in the “Agency Comments”
                      section of this report.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      OIG appreciates CMS’s comments to the draft report and recognizes its
                      efforts to educate the provider community and contractors regarding the
                      need for documentation to support services billed to Medicare.
                      However, OIG believes it is important to note that additional improper
                      payments may have been made, and that without proper documentation
                      OIG was unable to determine whether services were provided and the
                      appropriateness of some payments. OIG made changes to the report in
                      response to CMS’s technical comments.




OEI-07-03-00470       USE   OF   MODIFIER 25                                                  12
                                                                                    Report Template Version = 09-08-04




  Δ           A P P E N D I X

Stratification of Medical Review Sample Based on Claims Submitted Using
Modifier 25 That Medicare Allowed in 2002




                                                                                        Allowed
      Stratum Based on Volume of                     Number of        Percentage
                                                                                      Dollars for
      Claims and the Proportion of                    Claims in         of Claims
                                                                                       Claims in        Stratum
      a Provider’s Allowed Claims                       Sample         in Sample
                                                                                         Sample
      Submitted Using Modifier 25                     Universe          Universe
                                                                                       Universe
                         Top 10 percent based
                         on number of claims
                                                           64,841            0.3%         $4 million          1
      100 Percent
                         Remaining 90
                         percent 

                                                           55,767            0.2%        $3.6 million         2

                         Top 10 percent based 

      50 percent to      on number of claims
                                                        2.9 million          12%      $168.2 million          3
      less than
      100 percent        Remaining 90
                         percent
                                                        4.1 million         16.5%     $262.7 million          4


      20 percent to less than                           8.8 million          35%      $576.9 million          5
      50 percent


      1 percent to less than 20 percent                 8.9 million          36%      $623.7 million          6

      Total                                           24.8 million          100%        $1.6 billion
      Source: OIG, stratification of 2002 Medicare modifier 25 claims, 2005.
      Note: All providers submitting fewer than 25 claims using modifier 25 and those whose proportion of
      modifier 25 use was less than 1 percent were excluded because they posed a low risk.




OEI-07-03-00470             USE   OF   MODIFIER 25                                                                 13
                                                          Report Template Version = 09-08-04




  Δ         A G E N C Y             C O M M E N T S   





OEI-07-03-00470     USE   OF   MODIFIER 25 
                                             14
                                                         Report Template Version = 09-08-04




    A G     E N   C Y     C O          M M E N T   S 





OEI-07-03-00470         USE   OF   MODIFIER 25 
                                        15
                                                         Report Template Version = 09-08-04




    A G     E N   C Y     C O          M M E N T   S 





OEI-07-03-00470         USE   OF   MODIFIER 25 
                                        16
                                                             Report Template Version = 09-08-04




  Δ         A C K N O W L E D G M E N T S                   




                    This report was prepared under the direction of Brian T. Pattison,
                    Regional Inspector General for Evaluation and Inspections in the
                    Kansas City regional office, and Gina C. Maree, Assistant Regional
                    Inspector General. Other principal Office of Evaluation and Inspections
                    staff who contributed include:



                    Deborah Walden, Team Leader
                    Michael P. Barrett, J.D., Program Analyst

                    Steven Milas, Program Analyst

                    Michala Walker, Program Analyst

                    Stephanie London, Program Specialist

                    Linda Frisch, Program Specialist

                    Doris Jackson, Program Specialist

                    Tricia Davis, Director, Medicare & Medicaid Branch



                    Technical Assistance

                    Barbara Tedesco, Mathematical Statistician

                    Robert Gibbons, Program Analyst

                    Scott Hutchison, Program Analyst
                    Tara Bernabe, Program Analyst

                    Nancy Molyneaux, Program Analyst




OEI-07-03-00470     USE   OF   MODIFIER 25                                                  17
